UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2049

Larry David Davis
Petitioner - Appellant
v.
Dexter Payne, Director, Arkansas Department of Correction
Respondent - Appellee
Appeal from U.S. District Court for the Western District of Arkansas - Hot Springs
(6:18-cv-06125-RTD)
JUDGMENT

Before KELLY, WOLLMAN, and STRAS, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
All pending motions are denied.
September 03, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2049
Larry David Davis
Appellant
v.
Dexter Payne, Director, Arkansas Department of Correction
Appellee

Appeal from U.S. District Court for the Western District of Arkansas - Hot Springs
(6:18-cv-06125-RTD)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
October 05, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Case 6:18-cv-06125-RTD Document 24

Filed 05/26/20 Page 1 of 1 PagelD #: 352

IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
HOT SPRINGS DIVISION

LARRY DAVID DAVIS
V.

PETITIONER
CIVIL NO. 6:18-cv-06125

DEXTER PAYNE, Director,
Arkansas Department of Correction

RESPONDENT

ORDER
The Court has received a Report and Recommendation (ECF No. 21) from United States
Magistrate Judge Barry A. Bryant. Petitioner Larry David Davis proceeds pro se in his Motion for Leave
to Appeal in forma pauperis (ECF No. 19). Upon review, the Magistrate recommended that the motion
* •.

to proceed 1FP on appeal should be granted and recommended further that no Certificate of Appealability
be granted in this matter because Petitioner has failed to make a substantial showing of any constitutional
right. Davis filed timely Objections (ECF No. 23) to the Report and Recommendation. The matter is now
ripe for consideration.
The Court has conducted a de novo review of those portions of the report and recommendation to
which Davis has objected. 28 U.S.C. § 636(b)(1). Petitioner’s objections offer neither law nor fact
requiring departure from the Magistrate’s findings. The report and recommendation is proper, contains
no clear error, and is ADOPTED IN ITS ENTIRETY.
IT IS THEREFORE ORDERED that the Motion (ECF No. 19) should be and hereby is GRANTED.
IT IS FURTHER ORDERED that no Certificate of Appealability shall be granted in this matter.
SO ORDERED this 25th day of May 2020.

/4/R0/U1J T. [XuV-t&hROBERT T. DAWSON
SENIOR U.S. DISTRICT JUDGE

' -AV

Case 6:18-cv-06125-SOH-BAB Document 5

Filed 12/20/18 Page .1 of 3 PagelD #: 65

IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
HOT SPRINGS DIVISION
LARRY DAVID DAVIS
v.

PETITIONER
Case No. 6:18-cv-6125

WENDY KELLY, Director
Arkansas Dept. Of Correction

RESPONDENT

ORDER
Came on for consideration LARRY DAVID DAVIS’s Petition for Writ of Habeas Corpus
pursuant Title 28 U.S.C. §2254 (ECF No. 1), and Petitioner's Motion to Proceed In Forma
Pauperis (ECF No. 3). Having reviewed the Petition for Writ of Habeas Corpus, the Court is of
» \

the opinion that the Petitioner should be allowed to proceed in forma pauperis.
IT IS THEREFORE ORDERED that the Motion for Leave to Proceed In Forma
Pauperis (ECF No. 4) is GRANTED, and Petitioner is allowed to proceed in forma pauperis.
IT IS FURTHER ORDERED, the Clerk of the Court is directed to serve, by certified mail,
the Petition and supporting documents, as well as a copy of this Order, on the Respondent, Wendy
Kelly, and the Attorney General of the State of Arkansas without prepayment of fees and cost or
security therefor. See Rule 4, rules governing Section 2254 Cases in the United States
District Court. The addresses to be used are as follows:
Wendy Kelly
Arkansas Board of Correction, Compliance Division
P.O. Box 20550
Whitehall, AR 71612

Leslie Rutledge
1

Western District of Arkansas

https://jenie.ao.dcn/arwd-ecf/cgi-bin/Dispatch.pl9292349--

Orders on Motions
6:18-cv-06125-SOH-BAB Davis v.
Kelley
HABEAS,CASREF
U. S. District Court
Western District of Arkansas
Notice of Electronic Filing
The following transaction was entered on 12/20/2018 at 9:55 AM CST and filed on 12/20/2018
Davis v. Kelley
Case Name:
Case Number:
6:i8-cv-o6i25-SOH-BAB
Filer:
Document Number: 5
Docket Text:
ORDER granting [3] Motion for Leave to Proceed in forma pauperis; ORDER DIRECTING
THE CLERK OF COURT TO SERVE Wendy Kelley and the Attorney General of the State of
Arkansas and granting 30 days to answer. Signed by Honorable Barry A. Bryant on
December 20, 2018. (mjm)
6:i8-cv-o6i25-SOH-BAB Notice has been electronically mailed to:
6:i8-cv-o6i25-SOH-BAB Notice has been delivered by other means to:
Larry David Davis
123330
ADC - DELTA REGIONAL UNIT
880 East Gaines
Dermott, AR 71638-9505
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1094675213 [Date=i2/20/20i8] [FileNumber= 1731335o] [0478dii3e399cc22357b2bff3d4ff4ce6e68c99db98beif5efafe6bf94ib5dd44a
“ 6of3b98ei7f8cfa8b824b3c8aob69a6c405ccf5877i8i32fbda9i9e8bd6f84]]

l

of 1

12/20/2018,9:55 AM

Case 6:18-cv-06125-RTD Document 21

Filed 02/18/20 Page 1 of 2 PagelD #: 340

IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
HOT SPRINGS DIVISION
LARRY DAVID DAVIS
v.

PETITIONER
Case No. 6:18-cv-06125

DEXTER PAYNE1, Director,
Arkansas Department of Correction

RESPONDENT

MAGISTRATE JUDGED REPORT AND RECOMMENDATION
Before the Court is the Motion for Leave to Appeal In Forma Pauperis (ECF No. 19) filed
by Larry David Davis, an inmate confined in the Arkansas Department of Correction, Delta Regional
Unit.
1.

Discussion:
On January 27, 2020, this Court dismissed the Petition in this matter. ECF No. 17. On

Petitioner now seeks to appeal that dismissal and asks to be allowed to proceed in forma pauperis
(IFP). ECF No. 19. Petitioner was previously found qualified to proceed IFP and his instant Motion
shows he is still entitled to proceed IFP.
While Petitioner is entitled to proceed IFP, it does not appear there is a good faith reason to
grant a Certificate of Appealability in this case. As shown in this Court’s prior rulings (ECF Nos.
15 and 17), Petitioner has made no substantial showing of the denial of a constitutional right, as
required by 28 U.S.C. 2253(c). Accordingly no Certificate of Appealability should issue here.

1 Dexter Payne has succeeded Wendy Kelley as the Director of the Arkansas Division of
Correction. He is automatically substituted as the party herein pursuant to Fed. R. Civ. P. 25(d).
-1-

Case 6:18-cv-06125-RTD Document 21

2.

Filed 02/18/20 Page 2 of 2 PagelD #: 341

Recommendation:
Accordingly, based on the foregoing, it is recommended the instant Motion to Proceed IFP

on Appeal (ECF No. 19) should be GRANTED. The undersigned also recommends that no
Certificate of Appealability be granted in this matter as Petitioner has failed to make a substantial
showing of denial of any constitutional right.
The Parties have fourteen (14) days from receipt of this report and recommendation
in which to file written objections pursuant to 28 U.S.C. § 636(b)(1). The failure to file timely
objections may result in waiver of the right to appeal questions of fact. The Parties are
reminded that objections must be both timely and specific to trigger de novo review by the
district court.
DATED this 18th day of February 2020.
/s/ Barry A, Bryant
HON. BARRY A. BRYANT
UNITED STATES MAGISTRATE JUDGE

-2-

_

FT

ARKANSAS COURT OF APPEALS
DIVISION I
No. CR-18-347
Opinion Delivered

Noyember 7, 2018

LARRY DAVID DAVIS
APPELLANT APPEAL FROM THE CLARK
COUNTY CIRCUIT COURT
[NO. 10CR-17-70]

V.
STATE OF ARKANSAS

APPELLEE

HONORABLE GREGORY L.
VARDAMAN, CIRCUIT JUDGE

/

AFFIRMED
j

N. MARK KLAPPENBACH, Judge
Q

On November 29, 2017, appellant Larry David Davis appeared before the Clarke
County Circuit Court to enter a negotiated plea of no contest to the crimes of commercial
burglary, theft of property, and breaking or entering, as charged in circuit court case number
I

CR-17-70. The S tate had accused Davis of breaking into the office of the Southfork Truck
Stop in Clark County and stealing money on April 4, 2017. At the conclusion of the plea
hearing, the trial court sentenced Davis, as a habitual offender, to concurrent prison terms
for a total of thirty years to be served in the Arkansas Department of Correction.

A

sentencing order was filed to memorialize the plea and sentencing. Davis filed a petition
for postconviction relief in case number CR-17-70 pursuant to Arkansas Rule of Criminal
Procedure 37.

The circuit court entered an order denying Davis’s petition without

conducting an evidentiary hearing. Davis filed a timely notice of appeal from that order.
We affirm.

er?w.i
*

FN THE CIRCUIT COURT OF CLARK COUNTY, ARKANSAS

c
1

STATE OF ARKANSAS

PLAINTIFF

vs.

r

(10)CR. 2017-70

LARRY DAVID DAVIS

DEFENDANT
ORDER DENYING RULE 37 PETITION

BEFORE the Court is Defendant’s RULE 37 PETITION, and the Court, being well and
sufficiently advised of the facts and law hereby finds and Orders as follows:
1.

On November 29, 2017, following a recital of rights, the Defendant voluntarily
entered a plea of guilty to the offenses charged against him in Clark County cases
(10)CR. 2017- 70.

The Court hereby finds and Orders that Defendant’s Rule 37 Petition should be and
hereby is DENIED, as Defendant has failed to provide cognizable claims under Ark. R. Crim.

c

Pro. 37 following his voluntary plea of guilt in each case, and as such is not entitled to such

,I

relief pursuant to the voluntary guilty pleas.
IT IS SO ORDERED.

DATE:
Clerk mail copies to:
Prosecutor’s office
Defense Attorney
Defendant

.o'clock

iljaLtoitll, circuit Clerk

V.

■

\3"7

Pile tor ItefOffcWdfly dLhi2

O

Oapiity nifirk

t

(

v

C 71

Cs

»

IN THE CIRCUIT COURT OF CLARK COUNTY, ARKANSAS
Criminal Division
RESPONDENT/PLAINTIFF
STATE OF ARKANSAS
VS.

CASE NO. 10CR 17-70
PETITIONER/DEFENDANT

LARRY DAVID DAVIS

ORDER DENYING PETITION TO CORRECT ILLEGAL SENTENCE
Came on for consideration, Defendant’s Petition to Correct Illegal Sentence, and the
Court having considered the pleadings, arguments, authorities and matters presented, the Court
hereby finds and orders that Defendant has failed to demonstrate that the sentence entered illegal
and failed to present otherwise cognizable claims for such relief and is therefore DENIED.
IT IS SO ORD1
*1.

Hon. Grei

xlarhan

o
' fe

(

Date
Fife for Reta
Deputy Clerk

&
9

rL fu ^

